OFFICE OF INSPECTOR GENERAL

AUDIT OF U.S. AFRICAN
DEVELOPMENT FOUNDATION’S
ACTIVITIES IN BURKINA FASO

AUDIT REPORT NO. 7-ADF-15-002-P
October 24, 2014




DAKAR, SENEGAL
Office of Inspector General


October 24, 2014

Ms. Shari Berenbach
President
U.S. African Development Foundation
1400 I Street NW, Suite 1000
Washington, DC 20005-2248

Dear Ms. Berenbach:

This letter transmits our final report on the Audit of U.S. African Development Foundation’s
Activities in Burkina Faso. In finalizing this, we carefully considered your comments on the draft
report and included them in their entirety in Appendix II.

The report contains nine recommendations for your action. Based on your comments, we
acknowledge that management decisions have been reached on all of the recommendations.
Determination of final action will be made by the foundation’s audit committee, and we ask that
we be notified upon completion of the proposed corrective actions.

I appreciate the cooperation and courtesy extended to my staff during this audit.

Sincerely,

Louis Duncan Jr. /s/
Acting Regional Inspector General/Dakar




Office of the Regional Inspector General/Dakar
U.S. Embassy Building
Route des Almadies
B.P. 49
Dakar, Senegal
http://oig.usaid.gov
CONTENTS
Summary of Results .................................................................................................................1

Audit Findings ...........................................................................................................................3

     Some USADF Projects Were Late or Incomplete ..................................................................3

     Partner Organization Did Not Respond to Some Grantees’ Problems ...................................4

     Financial and Administrative Management Strengthening Activities Were Not Sustainable ... 5

     Some Grantees Did Not Report Accurate Results .................................................................6

     USADF Set Some Performance Indicator Targets Too Low ..................................................8

Evaluation of Management Comments..................................................................................10

Appendix I—Scope and Methodology ...................................................................................12

Appendix II—Management Comments ..................................................................................14
SUMMARY OF RESULTS
Congress established the U. S. African Development Foundation (USADF) in 1980 “to enable
the people of African countries to develop their potential, fulfill their aspirations, and enjoy
better, more productive lives.” To achieve this, USADF provides development grants of up to
$250,000 that help community enterprises grow and help those least served by existing markets
or assistance programs. It currently operates in 19 countries, with approximately $45 million in
funding for 301 active grant projects.

Since 2008 USADF has supported cooperatives, grassroots associations, and farmers unions in
Burkina Faso to improve food security, generate income, and improve livelihoods. The
foundation targets marginalized communities in the landlocked West African country in which,
as recently as 2009, nearly 47 percent of the population lived below the national poverty line. 1
USADF develops and monitors its projects through its Burkinabe partner organization, Cabinet
d’Ingénierie et de Conseil en Développement d’Entreprises (ICDE). As of March 2014, USADF
had 21 active grant projects in Burkina Faso, worth approximately $2.9 million.

The Regional Inspector General/Dakar (RIG/Dakar) conducted this audit as part of its fiscal year
(FY) 2013 audit plan. The objective was to determine whether USADF’s activities in Burkina
Faso were achieving their goals of alleviating poverty and promoting emerging entrepreneurs.

The audit concluded that they were contributing to the goals. Grantees were trained to manage
their associations, and they then wrote manuals that formalized their administrative,
governance, and accounting policies. Grantees also bought valuable equipment to use in
income-generating activities and to outfit association management offices. By using USADF’s
procurement process, grantees understood the benefit of comparison-shopping and promised to
do so in the future.

Furthermore, many grantees benefitted from technical training that encouraged them to use new
skills and techniques to increase their production and market their final products. Some
benefitted from infrastructure improvements that gave them easier access to their fields and
improved their working environments.

Despite these achievements, the audit found some problems that USADF should address.

•   Some projects were late or incomplete (page 3). Four of the five active grantees we visited
    were running late in carrying out their activities, and six of the seven grantees with expired
    projects did not finish their activities.

•   ICDE did not respond to some grantees’ problems (page 4). Although grantees notified the
    partner organization of problems affecting how they carried out activities, ICDE employees
    did not help the grantees solve them in time to make a difference.

•   Financial and administrative management strengthening activities were not sustainable
    (page 5). Grantees hired financial and managerial contractors to perform administrative
    functions during their projects. However, the contractors left when the projects were over,

1
  World Bank. “World Development Indicators,” Burkina Faso, http://data.worldbank.org/country/burkina-
faso. Accessed July 9, 2014.


                                                                                                    1
    and the grantees could not replace them. Furthermore, members of grantee associations
    were not trained properly to carry out these functions.

•   Some grantees did not report accurate results (page 6). Some results did not relate directly
    to indicators, lacked supporting documentation, and had errors and inconsistent information.
    In addition, some grantees did not understand how to calculate and report the results of their
    activities.

•   USADF set some performance indicator targets too low (page 8). Some grantees reported
    having met or exceeded their performance targets within months of beginning their projects,
    even though they were running late.

To address these problems, the audit recommends that USADF:

1. Require ICDE to evaluate the reasonableness of grantee work plans to make sure all
   activities can be completed before a project ends (page 4).

2. Require ICDE to provide additional training to grantees on the disbursement request
   process (page 4).

3. Require ICDE to document in each project’s pre-closeout assessment a determination
   whether an extension waiver should be approved. If it is, this procedure should establish a
   firm—but reasonable—end date for the project and the completion of all of its activities
   (page 4).

4. Document project issues communicated between USADF, ICDE, and its grantees to identify
   the issue, implement an action plan, and establish a target date for resolution (page 5).

5. In its grant agreements, require that grantees designate a member of the association to
   receive technical training from the financial and administrative management contractors
   (page 6).

6. Verify that contractors providing financial and administrative management services transfer
   the technical abilities of these roles to the grantees during the course of a project (page 6).

7. Require ICDE to verify periodically the results reported for grantees’ performance indicators.
   This plan should include steps to verify data during monitoring visits and when reviewing
   quarterly reports (page 8).

8. Require ICDE to train association management and members of grantee monitoring
   committees to verify performance data (page 8).

9. Verify midway through a grant project that targets align with existing realities, and document
   its decision to keep or modify the targets (page 9).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments are included in Appendix II, and our evaluation of them is
on page 10.




                                                                                                2
AUDIT FINDINGS
Some USADF Projects Were Late or
Incomplete
In Section 211, “Project Development,” of USADF’s manual, a project grant is defined as “a
complete, separate, and specified set of activities that are directed toward the achievement of
pre-identified, development-related purposes, goals, and objectives.” Section 232, “Project
Quality Assurance,” stresses, “Grantees are responsible for the timely and effective
implementation of their grant agreements.”

All grantees prepare project work plans that provide a schedule of when activities and training
will be completed. In addition, all grant agreements between USADF and a beneficiary specify
the project end date, which is also when all activities should be completed.

However, some grantees in Burkina Faso with active and expired agreements ran into delays or
did not finish their work.

Active Projects. Four of the five grantees with active projects were running late, as described
in the examples below.

•   A fishermen’s association received a grant to develop a resource management plan
    designed to improve member services and promote the use of sustainable fishing activities.
    Although the grantee planned to provide technical training in water resource management
    and proper fishing practices during 2012, members had not yet received them when we
    visited in May 2014. The grantee also had not developed the management plan yet.

•   Another association received a grant for a variety of activities, including the construction of a
    weaving center. Although the work was not scheduled to begin until June 2014, by
    May 2014, the grantee had not selected a consultant to perform the required feasibility
    studies on the building or chosen the contractor to build it.

Expired Projects. Six of the seven grantees with expired grants did not complete their
activities. In several cases, this meant that grantees did not meet their objectives. For instance,
two agricultural associations received grants to develop comprehensive business plans to
improve delivery of services to producers. However, neither of them did, nor did they complete
technical training and other activities.

These problems happened for five reasons. First, ICDE employees acknowledged that the work
plans for some grantees included too many activities or had scheduled them to take place too
early in the project. Second, after an award was approved, getting the activities going took
about 6 months; for a 2-year grant, this left the grantee only 18 months—not enough time
necessarily to complete its planned activities. Third, ICDE and USADF revisions to grantees’
disbursement requests slowed the procurement of goods and services because it took an
extended time for some grantees to receive their funds. Fourth, some grantees could not find
qualified consultants to perform training or other activities because the salaries offered were
inadequate. Fifth, as discussed in the next finding, ICDE employees did not always respond in a
timely manner to grantees with problems.



                                                                                                   3
Implementation delays affect the progress of grantee projects. The grantees whose projects
were late may not complete their planned activities and meet their objectives. Delayed or
incomplete training reduces the benefit of planned technical assistance, which could prevent the
grantee from using these skills. The grantees that closed their projects without completing their
activities, including the development of business plans, may miss valuable opportunities to
collaborate with other donors or organizations that could provide additional funding or
assistance. Therefore, to encourage the timely implementation of activities, we make the
following recommendations.

   Recommendation 1. We recommend that USADF require Cabinet d’Ingénierie et de
   Conseil en Développement d’Entreprises to evaluate the reasonableness of grantee
   work plans to ensure that all activities can be completed before a project ends.

   Recommendation 2. We recommend that USADF require Cabinet d’Ingénierie et de
   Conseil en Développement d’Entreprises to provide additional training to grantees on the
   disbursement request process.

   Recommendation 3. We recommend that USADF require Cabinet d’Ingénierie et de
   Conseil en Développement d’Entreprises to document in each project’s pre-closeout
   assessment a determination whether an extension waiver should be approved. If it is,
   this procedure should establish a firm—but reasonable—end date for the project and the
   completion of all of its activities.

Partner Organization Did Not
Respond to Some Grantees’
Problems
ICDE's cooperative agreement with USADF outlines its responsibilities for program remediation.
It states that ICDE:

       [W]ill visit projects regularly to help grantees assess and document progress,
       identify problems or issues hindering achievement of project objectives, and
       actively engage with grantees to timely resolve these problems. The partner will
       also assist grantees in resolving administrative and logistical problems with
       banks, vendors, and local government authorities.

Four grantees we visited (two active and two inactive) said they informed ICDE about their
implementation problems during monitoring visits and in quarterly reports. However, ICDE
employees did not always respond or intervene to help resolve them. Unresolved issues are
difficulty hiring consultants, obtaining technical training, and following required USADF
processes.

Some of the problems resulted from circumstances outside of ICDE’s control. For example,
some agricultural grantees based in the arid northern part of the country did not have enough
water for the growing season. However, USADF’s funding limitations prevented it from providing
enough resources to build a reservoir.

In another example, grantees found it difficult to hire contractors because their fees often were
more than the grantees could afford. One grantee said service providers did not understand
USADF’s required procurement process and refused to provide quotes for goods and services if


                                                                                               4
they were not guaranteed to be selected. ICDE did not intervene to help resolve these problems
because staff believed that the responsibility of recruiting consultants and service providers
rested solely with the grantee and that they should not become involved.

Because of the lack of responsiveness, four of the grantees we visited had implementation
problems that led to either project delays or an inability to complete planned activities before
their projects ended. These grantees risk not receiving the full benefits of the planned training
and other activities meant to increase their productivity. Therefore, they may not meet their
project goals and objectives. To help ICDE be more responsive to grantees with problems, we
make the following recommendation.

    Recommendation 4. We recommend that USADF document project problems
    communicated between USADF, Cabinet d’Ingénierie et de Conseil en Développement
    d’Entreprises, and its grantees to identify the problem, implement an action plan, and
    establish a target date of resolution.

Financial and Administrative
Management Strengthening Activities
Were Not Sustainable
USADF grant agreements outlined the expected results that grantees had to achieve during
each project. A common one was improved financial and administrative management capacity.
Evidence of this would be a grantee’s ability to produce simple financial statements and reports;
establish adequate financial controls; and implement accounting procedures, policies, and
systems that meet international audit standards. A grantee’s management team would use
these reports and systems routinely to make decisions for the group.

To achieve this result, many grantees planned to hire an accounting manager for the term of the
grant. For example, to reach its objective of improved capacity to manage a micro-credit fund,
one grantee institution planned to hire a project manager with a background in accounting to
prepare financial reports and work plans, monitor activities, and analyze program
implementation. Furthermore, to help achieve its goal of increasing the number of beneficiaries
and the amount of loans provided, the institution planned to hire a loan officer and a cashier.

USADF’s efforts to improve the financial and administrative management capacity of its
grantees were not sustainable. All but one grantee 2 hired the financial and administrative
professionals sought in the grant agreements. However, they left their positions after their
contracts expired. Many grantees either have been unable to keep the positions filled after the
end of the project or have not been trained properly to carry out these functions themselves. For
example:

•   The micro-finance institution hired an office manager, accountant, and cashier. However,
    because of a lack of funding, these positions have been vacant since these contracts ended,
    which coincided with the end of the grant. With the lack of funding and personnel, members
    of the institution said it has since experienced operational difficulties.



2
 One grantee said it could not hire an accountant because it was in a remote area and could not pay a
competitive salary. That grantee relied on volunteers to carry out required accounting functions.


                                                                                                   5
•   An agricultural association that received a USADF grant hired several contractors, including
    an accountant and project manager, to strengthen its organization and management. They
    left their positions at the end of the project and have not been replaced. In addition,
    association members said the accountant prepared financial reports on his own computer
    and did not return them, leaving the association without this information.

•   A member of a banana producers association took on the accounting responsibilities in
    January 2014 after the contract accountant left. This member said he was unfamiliar with
    the accounting system put in place under the project and did not know how to prepare
    required reports.

Grantees said lack of resources prohibited them from filling vacant positions after their projects
ended. Moreover, ICDE did not make sure the contractors trained the grantees to take over the
financial tasks because, as discussed later in this report, they were more focused on monitoring
and verifying financial transactions than performance results.

Grantees did not fully benefit from the financial and administrative management component of
their projects. Without contracted professionals in these roles or without receiving appropriate
training to perform these functions themselves, grantees could not sustain the technical and
operational improvements obtained under the project. To improve the sustainability of this
component of the grant projects, we make the following recommendations.

    Recommendation 5. We recommend that USADF include a requirement in its grant
    agreements that grantees designate a member of the association to receive technical
    training from the contracted professionals providing financial and administrative
    management services.

    Recommendation 6. We recommend that USADF verify that consultants providing
    financial and administrative management services transfer the technical abilities of these
    roles to the grantees during the course of a project.

Some Grantees Did Not Report
Accurate Results
Section 232 of USADF’s manual, “Project Quality Assurance,” states, “An effective project
quality assurance system is a necessary component of [US]ADF’s portfolio management
strategy.” Such a system should encourage accurate documentation and monitoring project
activities and progress toward performance goals.

This section also requires the partner organization to make sure grantees receive training that
covers the “identification of data needed to track the achievement of project objectives and
establishing appropriate information tracking systems.” Grantees, with help from USADF and its
partners, “are required to design and use a data collection system that allows the recording and
tracking of progress toward achieving stated performance indicators.” Furthermore, employees
from the partner organizations should review the grantees’ use and management of their project
data collection systems during required site visits; the partner organizations must verify the
accuracy and completeness of the grantees’ quarterly financial and program reports before
sending them to USADF.




                                                                                                 6
The audit team found a variety of problems with the results grantees reported. Some did not
directly relate to their indicators, lacked supporting documentation, or had calculation errors or
inconsistent information from previous quarters. In addition, some grantees did not understand
how to calculate and report their results.

Results Not Directly Related to Indicators. Some grantees calculated and reported on results
that did not directly relate to their performance indicators. For example, an agricultural
association reported its sales figures based on inventory levels rather than on products sold.
The association kept records of the value of its stocks of cowpeas and sesame. However, rather
than reporting these as inventory figures, the association reported them as sales.

Lack of Supporting Documentation. Several grantees we visited did not maintain adequate
documentation to support the reported results in their quarterly reports. In one example, a
fishermen’s association estimated the profit earned from the sale of smoked fish. While the
organization kept records of the amount of fish, wood, and other inputs purchased for use in the
smoking process, it did not use these figures to calculate profits earned. Instead, the association
reported an unverifiable figure based on data reported by the women members. In addition, it
did not provide sales receipts.

Calculation Errors and Inconsistent Information. Some grantees’ reports contained
calculation errors that led to overstated results. Other grantees’ reports included inconsistent
information for results reported for previous quarters, as noted in the examples below.

•   The increase in total membership of an agricultural association was overstated. The
    association reported its total membership each quarter. However, the USADF-provided
    template used to prepare the reported results automatically added these totals together and
    reported the sum as the annual figure. Therefore, the reports submitted to USADF
    erroneously stated that the association had greatly exceeded its membership targets.

•   The fishermen’s association inconsistently reported on its indicator for the amount collected
    in weigh fees (per kilogram of fish caught) over the course of the grant. Some reports
    included the results for several quarters of the project, while other reports included no
    results at all.

Lack of Reporting. Some grantees did not report their progress toward meeting established
performance indicator targets. While some grantees were not familiar with the reporting
process, others regularly omitted results for some indicators.

All of these problems occurred because ICDE employees emphasized the verification of
financial transactions and reports more than performance results. Consequently, these
employees did not review supporting documentation during site visits and quarterly report
reviews to make sure they were complete and accurate.

Members of grantee monitoring committees did not review their associations’ reported results
and focused instead on implementing activities. The associations hired accountants to compile
and report results for the quarterly reports, which then left the associations to focus on carrying
out activities. However, some accountants left without training association members to assume
the reporting functions; so the associations could not perform them properly.

Reported results for several grantees cannot be verified, and USADF cannot be confident that
they are accurate and complete. Therefore, it is not possible to determine whether these


                                                                                                 7
grantees have made any progress in achieving their performance objectives. Furthermore,
USADF uses performance indicator data to assign project grades during its biannual review
process. Without verifying the accuracy and completeness of reported results, USADF may rely
on incorrect data in classifying a grantee’s performance. To strengthen grantee performance
reporting, we make the following recommendations.

    Recommendation 7. We recommend that USADF require Cabinet d’Ingénierie et de
    Conseil en Développement d’Entreprises to verify periodically the results reported for
    grantees’ performance indicators. This plan should include steps to verify data during
    monitoring visits and when reviewing quarterly reports.

    Recommendation 8. We recommend that USADF require Cabinet d’Ingénierie et de
    Conseil en Développement d’Entreprises to train association management and members
    of grantee monitoring committees how to verify performance data.

USADF Set Some Performance
Indicator Targets Too Low
Grant agreements between USADF and its beneficiaries outlined the goal and purpose of each
specific project, as well as any planned outputs to be achieved and key activities to be
undertaken. In line with Section 231 of the USADF manual, “Grantee Reporting,” targets for the
project implementation plan and key performance indicators were established in the grant
agreements.

Although USADF established performance indicator targets in each grant agreement, it set
some too low to be a useful measure of progress. 3 As illustrated in the examples below, these
grantees met their project targets within months of starting—despite the fact that some began
late.

•   An agricultural grantee, whose project began in September 2012, did not get several
    technical training programs as planned and implemented several activities 4 to 7 months
    late. However, within 3 months, the grantee reported that it had surpassed its annual
    production target. By June 2013, the grantee reported that it exceeded its end-of-project
    target for increased yield.

•   A banana producer association began its project in May 2011 and ran into numerous delays.
    Yet within 7 months, the grantee reported that it had well exceeded its end-of-project targets
    for net income for producers, sales per hectare, and sales for women producers.

ICDE said these issues occurred because it was sometimes difficult to get realistic baseline
data from prospective grantees to establish appropriate performance targets. According to ICDE
employees, prospective grantees often either inflate or understate their sales to appear more
attractive. In addition, weather and economic fluctuations may affect the grantee’s baseline data
and results.

When targets are set too low, USADF and its partner organizations cannot measure grantee
progress accurately. Because USADF considers performance data during its biannual review

3
  In making this judgment, the audit team considered only unaudited data that grantees reported and
submitted in quarterly reports.


                                                                                                 8
process, comparing too low of a target may unfairly influence the assigned grade. Moreover,
USADF cannot accurately determine a grantee’s overall performance and its own progress
toward reaching its goals. Therefore, to help USADF establish realistic, useful performance
targets, we make the following recommendation.

   Recommendation 9. We recommend that USADF implement procedures to verify
   midway through a grant project that targets align with existing realities, and document its
   decision to keep or modify established targets.




                                                                                                 9
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USADF concurred with Recommendations 1, 3, 4, 6, 7, and
8, and concurred in part with Recommendations 2, 5, and 9. Based these comments, we
acknowledge that management decisions have been reached on all recommendations. Our
detailed evaluation of management comments follows.

Recommendation 1. USADF officials said some projects may involve more training than
others, especially if the main objective is to develop expertise and skills. They agreed that some
projects’ activities are too condensed for grantees that do not have many skills to start with. In
those cases, USADF agreed to develop a manageable calendar during the project design and
start-up phases. In addition, they plan to require that ICDE evaluate the reasonableness of
grantee work plans to ensure that all activities can be completed before a project ends,
including the development of an implementation calendar which will be updated regularly
through quarterly reports. The target date for completion is December 19, 2014. As a result, we
acknowledge that USADF made a management decision.

Recommendation 2. USADF officials concurred in part with the recommendation. They said
that although the foundation’s partners provide formal training to grantees at the start of each
project, grantees also benefit from more individualized, hands-on training during project
implementation. USADF officials said the current training was sufficient, but they would ask
ICDE to provide additional coaching and support, particularly on priority procurement items. This
will include developing a procurement checklist that makes it easier to process payments on
time and identifies the supporting documentation required to make a request.

USADF officials said ICDE has implemented some solutions to address the delays that stem
from late payments and lack of qualified consultants. They include developing a database of
qualified consultants, and networking with local institutions. The target date for completion of
these activities is November 21, 2014. Accordingly, we acknowledge that USADF made a
management decision.

Recommendation 3. USADF officials concurred with the recommendation and will require
ICDE to document a determination in each project’s pre-close-out assessment on whether to
extend the project. This assessment will determine which activities cannot or will not be
completed. It will consider factors outside of USADF’s manageable control, including natural
disasters, security concerns in affected areas, new government policies, and economic
downturns. The target date to complete this activity is March 10, 2015. Accordingly, we
acknowledge that USADF made a management decision.

Recommendation 4. USADF officials concurred with the recommendation and said they will
work with ICDE to encourage open discussions throughout grant projects. However, they
explained that the foundation did not intend to provide support or a response to all grantee
problems.

USADF intends to document project problems communicated between USADF, ICDE, and its
grantees, implement an action plan, and establish target dates for resolution. Proposed



                                                                                               10
solutions will be documented in site visit and quarterly reports, remediation plans, and monthly
reports from ICDE. The target date for completion of this activity is January 30, 2015. As a
result, we acknowledge that USADF made a management decision.

Recommendation 5. USADF officials concurred in part with the recommendation. In FY 2013,
they said, the foundation began including in its contracts the requirement that a contracted
professional train selected members of a project to take on several financial roles and
responsibilities by the end. However, this was not practical for every project; larger enterprises
with numerous, complicated transactions often required a full-time, professional accountant to
provide continued support. Therefore, the officials said USADF plans to verify that grant
agreements “document the requirement for a contracted professional to perform required
financial services.” As appropriate, USADF will verify that a requirement that grantees transfer
these services to a member of the project—that the grantee designated—is reflected in the
grant agreement. The target date for the completion of this activity is November 21, 2014.
Accordingly, we acknowledge that USADF officials made a management decision.


Recommendation 6.          USADF officials agreed to verify the transfer of financial and
administrative skills, when required under a project, and has begun to address the
recommendation. In July 2013 ICDE organized training for accountants working on all active
projects. ICDE also will introduce a financial monitoring checklist. The target date for the
completion of this activity is December 19, 2014. As a result, we acknowledge that USADF
made a management decision.

Recommendation 7. USADF officials concurred with the recommendation and said they will
require ICDE to verify data during site visits. This will include performing regular reviews of
tracking tools created by ICDE and grantee monitoring committees. The target date for the
completion of this activity is January 30, 2015. As a result, we acknowledge that USADF made
a management decision.

Recommendation 8. USADF officials concurred with the recommendation and plan to require
ICDE to train grantee association management and monitoring committee members how to
verify performance data. This includes continuing to work with grantees to create manageable
data collection tools appropriate for project performance indicators. The partner also will
continue to train grantee monitoring committees on their duties and how to use, verify, and
analyze results. The target date for this activity is January 30, 2015. Accordingly, we
acknowledge that USADF made a management decision.

Recommendation 9. USADF officials concurred in part with the recommendation. They agreed
that a review of grantee indicators was essential and incorporated this review into the
foundation’s biannual portfolio review process. However, since each project has an individual
work plan, the midpoint of the grant may not be the appropriate time to determine whether
targets need to be re-established. The current biannual review process gives USADF the
flexibility to monitor changes in a grantee’s situation throughout the project and therefore limit
the number of revisions applied to performance indicators.

USADF officials plan to review all active projects during the process to identify underperformers
and document any changes to established targets. The target date to finish this activity is
January 30, 2015. As a result, we acknowledge that USADF made a management decision.




                                                                                               11
                                                                                    Appendix II



SCOPE AND METHODOLOGY
Scope
We conducted this audit in accordance with generally accepted government auditing standards.
They require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions in accordance with our audit
objective. We believe that the evidence obtained provides that reasonable basis.

The audit objective was to determine whether USADF's activities in Burkina Faso were
achieving their goals of alleviating poverty and promoting emerging entrepreneurs. As of
March 2014, the foundation had 21 active grants there worth about $2.9 million. We visited
12 that were worth $1.6 million: 5 active projects worth $825,100 and 7 inactive ones worth
$745,500.

In planning and performing the audit, RIG/Dakar’s audit team evaluated internal controls related
to USADF/Washington’s oversight of grant activities and monitoring activities performed by the
local USADF staff. We assessed the following significant controls: USADF’s review and
approval of assistance mechanisms, financial monitoring, planning processes, and monitoring
and evaluation processes. We reviewed cooperative agreements between USADF and ICDE,
grant agreements, bank reconciliation reports, annual work plans, portfolio reviews, and
monitoring reports. We also assessed ICDE’s planning, implementation, and monitoring of the
grant activities, and grantees’ accomplishment of their goals. We reviewed inactive grants that
closed in 2012 or 2013 and ongoing grants that will close between 2014 and 2017.

We assessed whether USADF and ICDE complied with applicable laws, regulations, and
USADF policies and procedures. We also assessed whether USADF, its local staff, and ICDE
established and followed controls when selecting prospective grantees and approving
disbursement requests.

We conducted our audit fieldwork in Ouagadougou from May 5 to May 22, 2014. We conducted
site visits in Banzon, Betta, Douna, Fada N'Gourma, Fara, Koungo, Namoungou, Ouahigouya,
Ponsomtenga, Titao, Toussiana, and Ziniaré. While security concerns limited our site visit
selection, they did not affect the completion of our audit fieldwork.

Methodology
To answer the audit objective, we reviewed USADF policies and procedures, cooperative
agreements with ICDE, and grant agreements with the selected grantees. We also reviewed
quarterly reports from the grantees to determine the project status and whether the projects met
or were achieving their goals. To understand the grant selection and project development
process, we reviewed the grantee folders that ICDE prepared and submitted to USADF.

To understand the procedures that USADF follows when selecting grantees, monitoring their
projects, and disbursing grants, we interviewed employees from USADF in Washington and
Burkina Faso and from ICDE. We interviewed USADF employees in Washington to understand
their oversight responsibilities.




                                                                                             12
                                                                                      Appendix II



In addition, we judgmentally selected 12 grantees to interview. These grantees were selected
based on the amount of funding they received from USADF and whether they were currently
implementing projects or have completed them. Although these grantees were in different
regions of the country, our selection was limited because of security concerns. As a result, we
did not select any USADF grantees in the north or east. Because we did not make a statistical
selection, the sample results cannot be projected to the entire population of USADF grantees in
Burkina Faso.

While interviewing grantees, we reviewed their electronically prepared or manually maintained
performance data to determine whether USADF received high quality, accurate data. Using this
information, we verified data collection processes and calculations for results reported in either
the December 2013 quarterly report or the last quarterly report of inactive grantees. Because
each grantee had different performance indicators, we validated data for indicators specific to
each grantee and for which results had been reported. Indicators that were within 10 percent of
their targets were considered achieved.

The results and conclusions related to our testing were limited to the items tested and cannot be
projected to the entire audit universe. However, we believe that our work provides a reasonable
basis for our conclusions.




                                                                                               13
                                                                                            Appendix II



MANAGEMENT COMMENTS


October 8, 2014

Mr. Abdoulaye Gueye
Regional Inspector General
U.S. Agency for International Development
Route des Almadies
B.P. 49
Dakar, Senegal

Dear Mr. Gueye:

Thank you for your transmission note and the Draft Report of the Office of Inspector General’s Audit of
U.S. African Development Foundation Activities in Burkina Faso dated September 10, 2014. The audit
was conducted to determine whether selected USADF projects in Burkina Faso were achieving their goals
of alleviating poverty and promoting emerging entrepreneurs. We appreciate the opportunity to comment
on the report (Audit Report No. 7-ADF-14-00X-P), its findings and recommendations.

USADF appreciates that the audit identified:
   • Grantees were providing for their overall goals;
   • Grantees were trained to manage their associations, and benefited from technical training that
     encouraged the use of new skills and techniques to increase their production and market their
     final products;
   • Grantees’ financial management included manuals that formalized their administrative,
     governance and accounting policies;
   • Grantees implemented USADF’s training on procurement processes to ensure best value and
     received equipment which facilitated income generating activities; and
   • Some grantees benefitted from infrastructure and equipment improvements that eased labor
     requirements and improved their working environment.

The OIG audit report accurately recognized that USADF’s grant population in Burkina Faso focuses on
underserved communities in the landlocked West African country in which, as recently as 2009, “nearly
47 percent of the population lived below the national poverty line.” USADF’s assistance in Burkina Faso
has been concentrated on agricultural production and valued-added processing to improve incomes and
break the cycle of poverty. Since 2009, USADF has awarded 47 economic development grants totaling
$5,786,257. This direct funding enables the underserved communities and Burkinabe farmers to resolve
problems that prevent them from entering the economic mainstream.

One needs to take into account the realities of Burkina Faso when assessing the objectives of the program
and measuring the results of USADF’s first five years. According to UNICEF, Burkina Faso’s literacy
rate is only 28.7% and the secondary school enrollment rate is 19.4%. These national statistics reflect



                                                                                                      14
                                                                                                Appendix II


some of the challenges USADF encounters when assisting underserved populations especially in rural
areas.

USADF’s model empowers Africans in the decision-making and implementation process to provide for a
project’s sustainability. Additional training, both technical and organizational, is a major focus for
capacity building grants. This approach results in better management of the project and empowers the
grantee to put in place the required building blocks of basic business management such as organizational
management, decision making and planning skills. The grantees demonstrate their newly-acquired
abilities by creating work plans, establishing various committees, recruiting staff and developing
appropriate financial systems during the life of their project.

The report did not note the necessity of all these activities as contributing to the achievement of the
overall program goals, especially for capacity-building grants.

AUDIT FINDINGS:

The audit identified 5 findings which resulted in 9 audit recommendations. It should be noted that the
audit did not identify any questioned costs. USADF provides the following additional comments and the
attached table reflecting USADF’s response to the findings.

In summary, USADF:
• Concurs with 6 audit recommendations (Rec.’s 1, 3, 4, 6,7 and 8)
• Concurs in Part with 3 recommendations (Rec’s 2, 5, 9)

In response to Finding 1: "USADF Projects Were Late or Incomplete,” which resulted in 3
recommendations: USADF concurs with Recommendations 1 and 3 and concurs in part with
Recommendation 2.

Recommendation 1: “USADF require the Partner to evaluate the reasonableness of grantee workplans
to ensure all activities can be completed before a project ends.”
Many training activities may be needed due to the inherent design of the project, specifically when the
main objective is to build capacity. The overall benefit of these trainings often requires that they be
completed at the beginning of a grant while others are timed to an agricultural calendar or to a specific
activity to ensure immediate applicability of skills. We agree that in some projects activities may be too
condensed given grantees’ inital low skill levels at the beginning of a project, and USADF should provide
extra attention to this during project development and project startup to ensure that a manageable calendar
is developed.

Recommendation 2: “USADF require the Partner to provide additional training to grantees on the
disbursement request process.”
At the beginning of every grant, formal training is provided by the Partner on USADF disbursement and
reporting processes, yet our experience has shown that grantees also benefit from more individualized
training when the beneficiary must actually do the activity during the life of the project with the Partner’s
guidance. Further formalized training in and of itself will not enhance the grantees’ understanding as
much as the hands-on training they experience. For example, the first experience of evaluating proposals
and selecting training providers is difficult to comprehend unless done with the assistance of the Partner,
regardless of previous standardized training. Furthermore, following these general practices, USADF
verifies grantees’ comprehension and ensures a transparent process that safeguards funds and best value.
The current training is sufficient, but USADF will request the Burkina Faso Partner to provide additional
coaching and support, specifically on priority procurement items.



                                                                                                          15
                                                                                               Appendix II


This recommendation resulted from the audit identifying delays in project implementation due to
untimely receipt of funds and difficulty finding qualified consultants. Although the audit has
recommended additional training, the Burkina Faso Partner has already implemented other solutions to
these problems including: developing standard terms of reference for various commonly requested
trainings, creation of a database of qualified consultants, and networking with local institutions. The
database has helped identify more qualified bidders despite projects’ remote locations which can be a
hindrance to attracting qualified bidders. Grants awarded since the end of FY 2013 have already profited
from this tool and shortened their disbursement times. The Burkina Faso Partner will continue to use this
database to facilitate the timely implementation of project-level activities.

However, USADF recognizes that the problem of finding qualified consultants on a timely basis is valid.
Specifically, when entering a new economic sector or funding a very specialized activity, finding
qualified technical trainers and staff is inherently difficult. If no qualified candidates are obtained, the
grantee must rebid, and in these cases, grantees may incur necessary delays. The alternative would be to
use government funds for a sub-standard or unqualified consultant that would ultimately yield little
benefit to the grantees.

Recommendation 3: “USADF require the Partner to document in each project’s pre-closeout assessment
a determination whether an extension waiver should be approved…”
USADF will ensure more timely adherence to complete and fully document pre-closeout visits, determine
if an extension is warranted, and which activities cannot or will not be completed. This will take into
account the many factors that are beyond anyone’s control including the following: natural disasters,
security concerns in affected areas, new government policies, and economic downturns.

In response to Finding 2: “Partner Organization Did Not Respond to Some Grantees’ Problems”
which resulted in 1 recommendation: USADF concurs with Recommendation 4.

Recommendation 4: “USADF document project problems communicated between USADF, the Partner
and its grantees to identify the problem, implement an action plan and establish a target date of
resolution.”
USADF appreciates the report mentioning that some of the grantees’ problems resulted from
circumstances outside of the Partner’s control.       The grantees may not view this from the same
perspective and may misinterpret the inability to resolve the problem as an unwillingness to assist them.
It should be noted, however, that USADF does not intend to provide support or a response to all problems
faced by a grantee. The prioritized problems are identified and agreed upon through the participatory
development process carried out with the Partner.

USADF and USADF’s Partner promote open discussion throughout the life of the grant especially during
the implementation phase should priorities and circumstances change. Through open discussion, the
most pressing issues can be identified and timely remediation can be scheduled. Site visit reports,
quarterly reports, remediation plans and monthly Partner reports document the proposed solutions to
achieve the best possible outcome for the grantees.

In response to Finding 3: “Financial and Administrative Management Strengthening Activities
Were Not Sustainable,” which resulted in 2 recommendations: USADF Concurs in Part with
Recommendation 5 and Concurs with Recommendation 6.

Recommendation 5: “USADF include a requirement in its grant agreements that grantees designate a
member of the association to receive technical training from the contracted professionals providing
financial and administrative management services.”
Starting in FY 2013, USADF included in the Appendix A of certain Burkina Faso grant agreements, the


                                                                                                         16
                                                                                               Appendix II


requirement that the contracted professionals train selected members of the project so that they are able to
take on several of the financial roles and responsibilities by the end of the project. Through experience,
USADF has realized that designating a member of the grantee group to be trained as a replacement for the
accountant is not always applicable to every project. Larger enterprises with numerous and more
complicated transactions often require a full-time, professional accountant to provide continued
operations. Changing the requirement for all grant agreements would not be practical and could create
unanticipated problems for other grantees.

Recommendation 6: “USADF verify that consultants providing financial and administrative management
services transfer the technical abilities of these roles to the grantees during the course of a project.”
The Partner has been proactive in ensuring financial competencies are enhanced. To enhance the
technical providers’ abilities to transfer skills to the grantees, the Burkina Faso Partner organized a
training in July 2013 for the accountants of all active projects. USADF will provide examples of tests
that the accountant administers to group members for those grants that do not plan on keeping the
USADF-provided accountant. Additionally a financial monitoring checklist will be developed and
introduced.

In response to Finding 4: “Some Grantees Did Not Report Accurate Results,” which resulted is 2
recommendations: USADF concurs with Recommendations 7 and 8.

Recommendation 7: “USADF require the Partner to verify periodically the results reported for grantees’
performance indicators…”
The Partner will continue to verify results reported from the grantees through regular reviews of data
collection tools during on-site visits and at the time of quarterly reports.

Recommendation 8: “USADF require the Partner to train association management and members of
grantee monitoring committess how to verify performance data.”
The Partner will continue to work with grantees to create manageable data collection tools appropriate to
the various project performance indicators. The Partner will also continue to train project-level
monitoring committees on the purpose of the committee and the usage, the verification and the analysis
of results.

In response to Finding 5, “USADF Set Some Performance Indicator Targets Too Low,” which
resulted is 1 recommendation: USADF Concurs in Part with Recommendation 9.

Recommendation 9: “USADF implement procedures to verify midway through a grant project that
targets align with existing realities and documents its decision to keep or modify established targets.”
A review of a grantee’s indicators is essential and USADF will continue to conduct its regular biannual
reviews of the portfolio which allows for an evaluation at multiple points in the grant’s life. The
determination of the need to re-establish project targets is not necessarily appropriate at the mid-point of
the grant given the individualized workplans of projects. For some, the evaluation may be too early; for
others, the evaluation may be too late. USADF already analyzes levels of target achievements. We first
must understand whether the situation or circumstance has greatly impacted the project and provides a
rationale for performance targets being modified. The current biannual review system allows for
sufficient flexibility to determine whether the grantee’s change in situation results from a consistent
pattern or a one-time occurrence. USADF prefers to limit the number of revisions applied to the
performance indicators or one risks having a moving target with no real basis. Thus it is best determined
to review a project’s indicators on an individual basis multiple times throughout its life.

Sincerely,



                                                                                                         17
                                        Appendix II



Shari Berenbach /s/
President and Chief Executive Officer

attachment




                                                18
                                                                                            Appendix II


                                                                                             Corrective
                                            ADF’s                                              Action
No.         OIG Recommendation             Response
                                                               Corrective Action(s)
                                                                                             Completion
                                                                                                Date
1.    Some USADF Projects Were Late or Incomplete
1     We recommend that USADF             Concur USADF will require USADF’s          December
      require Cabinet d’Ingénierie et de         Partner to evaluate the             19, 2014
      Conseil en Développement                   reasonableness of grantee work
      d’Entreprises to evaluate the              plans to ensure that all activities
      reasonableness of grantee work             can be completed before a
      plans to ensure that all activities        project ends.
      can be completed before a
      project ends.                              USADF will provide an example
                                                 of a project implementation
                                                 calendar created during a project
                                                 development for a Burkina Faso
                                                 grantee and a quarterly report
                                                 example showing how calendars
                                                 are updated which provides for a
                                                 manageable calendar that is
                                                 realistic.

2     We recommend that USADF              Concur     In the additional training the        November
      require Cabinet d’Ingénierie et de   in Part    USADF Partner has provided on         21, 2014
      Conseil en Développement                        the disbursement request
      d’Entreprises to provide                        process, USADF Partner will
      additional training to grantees on              include a procurement checklist
      the disbursement request                        that facilitates timely
      process.                                        disbursement of funds that has
                                                      been provided to the Burkina
                                                      Faso grantees identifying what
                                                      supporting documentation is
                                                      required to submit a DR.

                                                      USADF will provide an example
                                                      of a procurement checklist and
                                                      also submit a list of grantees that
                                                      have received the additional
                                                      training.




3     We recommend that USADF              Concur     USADF will require the Partner        March 10,
      require Cabinet d’Ingénierie et de              to document in each project’s         2015
      Conseil en Développement                        pre-closeout assessment
      d’Entreprises to document in                    determination on whether an
      each project’s pre-closeout                     extension should be provided.



                                                                                                     19
                                                                                        Appendix II


                                                                                         Corrective
                                            ADF’s                                          Action
No.         OIG Recommendation             Response
                                                              Corrective Action(s)
                                                                                         Completion
                                                                                            Date
      assessment a determination
      whether an extension waiver                     USADF will submit an example
      should be approved. If it is, this              of a pre-closeout visit which
      procedure should establish a                    documents whether an
      firm—but reasonable—end date                    extension should be approved
      for the project and the completion              and include a proposed end date
      of all of its activities.                       and completion date of grant
                                                      activities that are to be
                                                      completed during the remaining
                                                      period of the grant.


2.    Partner Organization Did Not Respond to Some Grantees Problems
4     We recommend that USADF            Concur USADF will document project             January
      document project problems                  problems communicated                  30, 2015
      communicated between USADF,                between USADF, Cabinet
      Cabinet d’Ingénierie et de                 d’Ingénierie et de Conseil en
      Conseil en Développement                   Développement d’Entreprises,
      d’Entreprises, and its grantees to         and its grantees to identify the
      identify the problem, implement            problem, implement an action
      an action plan, and establish a            plan, and establish a target date
      target date of resolution.                 of resolution.

                                                      USADF will provide examples of
                                                      site visits, QRs, remediation
                                                      plans, and monthly partner
                                                      reports which clearly
                                                      demonstrate that grantees’
                                                      problems are identified and
                                                      addressed and document, as
                                                      needed, follow-up action
                                                      required and target date for
                                                      resolution.




3.    Financial and Administrative Management Strengthening Activities Were Not Sustainable
5     We recommend that USADF            Concur USADF will ensure the Burkina       November
      include a requirement in its grant in Part  Faso grant agreement Appendix 21, 2014
      agreements that grantees                    As, as needed, document the
      designate a member of the                   requirement of a contracted
      association to receive technical            professional to perform required
      training from the contracted                financial services. As
      professionals providing financial           appropriate, USADF will ensure
      and administrative management               the requirement that these
      services.                                   services be transferred to a


                                                                                                 20
                                                                                           Appendix II


                                                                                            Corrective
                                           ADF’s                                              Action
No.         OIG Recommendation            Response
                                                              Corrective Action(s)
                                                                                            Completion
                                                                                               Date
                                                     member of the project that the
                                                     grantee designates is reflected
                                                     in the Appendix A.

                                                     USADF will provide a sample of
                                                     an Appendix A, which is a part of
                                                     the Burkina Faso grant award
                                                     which shows that the contracted
                                                     professionals are obligated to
                                                     transfer skills in the projects
                                                     where it is needed.

6     We recommend that USADF             Concur     USADF concurs to verify the           December
      verify that consultants providing              transfer of financial                 19, 2014
      financial and administrative                   administrative skills when it is
      management services transfer                   required for a project. USADF
      the technical abilities of these               will provide examples of tests
      roles to the grantees during the               that the accountant administers
      course of a project.                           to group members for those
                                                     grants that do not plan on
                                                     keeping the USADF provided
                                                     accountant. Additionally a
                                                     financial monitoring checklist will
                                                     be developed by the Burkina
                                                     Faso program. A follow-up
                                                     monitoring report will reflect the
                                                     training provided and the
                                                     member of the organization that
                                                     received the training.



4.    Some Grantees Did Not Report Accurate Results
7     We recommend that USADF              Concur USADF will require the Burkina           January
      require Cabinet d’Ingénierie et de          Faso Partner to implement                30, 2015
      Conseil en Développement                    procedures to verify data during
      d’Entreprises to verify periodically        site visits.
      the results reported for grantees’
      performance indicators. This plan           USADF will also continue to
      should include steps to verify              verify results reported by the
      data during monitoring visits and           grantees through regular reviews
      when reviewing quarterly reports.           of tracking tools created by the
                                                  Partner and monitoring
                                                  committees. USADF will provide
                                                  an example of a tracking tool
                                                  that was created with a grantee,
                                                  a sample monitoring report



                                                                                                    21
                                                                                          Appendix II


                                                                                           Corrective
                                            ADF’s                                            Action
No.         OIG Recommendation             Response
                                                              Corrective Action(s)
                                                                                           Completion
                                                                                              Date
                                                      where indicators are reviewed
                                                      and verified, and a sample
                                                      partner memo that is submitted
                                                      with the QR providing an
                                                      analysis of progress on the
                                                      indicator.

8     We recommend that USADF              Concur     USADF will require the Partner      January
      require Cabinet d’Ingénierie et de              to train the association            30, 2015
      Conseil en Développement                        management and monitoring
      d’Entreprises to train association              committee members on how to
      management and members of                       verify performance data.
      grantee monitoring committees
      how to verify performance data.                 USADF will provide an example
                                                      of the current training materials
                                                      on indicators available which
                                                      demonstrate the completeness
                                                      and thoroughness of the training
                                                      as well as an example of a data
                                                      collection tool, and a copy of a
                                                      sign-in sheet from a recent
                                                      monitoring training provided to a
                                                      grantee’s monitoring committee.




5.    USADF Set Some Performance Indicator Targets Too Low
9     We recommend that USADF          Concur USADF will review all active                January
      implement procedures to verify   in Part projects during its existing bi            30, 2015
      midway through a grant project           annual review process, identify
      that targets align with existing         underperforming projects and
      realities, and document its              document any adjustments to
      decision to keep or modify               established targets to reflect the
      established targets.                     revised targets to be achieved
                                               during the remaining period of
                                               the grant.

                                                      USADF will provide an example
                                                      of a biannual review and an
                                                      accompanying memo which
                                                      provides a brief synopsis of



                                                                                                   22
                                                                        Appendix II


                                                                         Corrective
                            ADF’s                                          Action
No.   OIG Recommendation   Response
                                              Corrective Action(s)
                                                                         Completion
                                                                            Date
                                      under-performing projects and
                                      what next steps are
                                      recommended, including if a
                                      revision of targets is merited.




                                                                                 23
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
